No. 20-884
IN THE

Supreme Court of the United States
CHEVRON CORP., ET AL., PETITIONERS
v.
COUNTY OF SAN MATEO, ET AL., RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CERTIFICATE OF SERVICE
I, Victor M. Sher, counsel of record for respondents and a member of the Bar
of this Court, certify that on April 5, 2021, all parties required have been served with
one physical copy and one electronic copy of the Brief in Opposition in the abovecaptioned case.
Respectfully Submitted,
/s/ Victor M. Sher
Victor M. Sher
Counsel of Record
Counsel for Respondents

THEODORE J. BOUTROUS, JR.
Counsel of Record
WILLIAM E. THOMSON
SAMUEL ECKMAN
GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue
Los Angeles, CA 90071
(213) 229-7000
tboutrous@gibsondunn.com

JONATHAN W. HUGHES
ARNOLD & PORTER KAYE
SCHOLER LLP
Three Embarcadero Center, 10th Floor
San Francisco, CA 94111-4024
MATTHEW T. HEARTNEY
JOHN D. LOMBARDO
ARNOLD & PORTER KAYE
SCHOLER LLP
777 South Figueroa Street, 44th Floor
Los Angeles, CA 90017-5844

THOMAS G. HUNGAR
JOSHUA S. LIPSHUTZ
LOCHLAN F. SHELFER
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036

PHILIP H. CURTIS
NANCY MILBURN
ARNOLD & PORTER KAYE
SCHOLER LLP
250 West 55th Street
New York, NY 10019-9710

ANDREA NEUMAN
GIBSON, DUNN & CRUTCHER LLP
200 Park Ave.
New York, NY 10166-0193

Counsel for Petitioners BP P.L.C. and
BP America Inc.

HERBERT J. STERN
STERN & KILCULLEN, LLC
325 Columbia Turnpike, Ste. 110
Florham Park, NJ 07932-0992

DAVID C. FREDERICK
BRENDAN J. CRIMMINS
DANIEL S. SEVERSON
KELLOGG, HANSEN, TODD, FIGEL
& FREDERICK, P.L.L.C.
1615 M Street, N.W. Suite 400
Washington, D.C. 20036

NEAL S. MANNE
SUSMAN GODFREY LLP
1000 Louisiana, Suite 5100
Houston, TX 77002

Counsel for Petitioners Shell Oil
Products Company LLC and Royal
Dutch Shell plc

Counsel for Petitioners Chevron
Corporation and Chevron U.S.A., Inc.
KEVIN ORSINI
VANESSA A. LAVELY
CRAVATH, SWAINE & MOORE LLP
825 Eighth Avenue
New York, NY 10019

DAWN SESTITO
O’MELVENY & MYERS LLP
400 South Hope Street
Los Angeles, CA 90071-2899
KANNON K. SHANMUGAM
WILLIAM T. MARKS
PAUL, WEISS, RIFKIND, WHARTON
& GARRISON LLP

STEPHEN C. LEWIS
R. MORGAN GILHULY
BARG COFFIN LEWIS & TRAPP, LLP
1

350 California St., 22nd Fl.
San Francisco, CA 94104-1435

2001 K Street, N.W.
Washington, DC 20005

Counsel for Petitioner Anadarko
Petroleum Corporation

THEODORE V. WELLS, JR.
DANIEL J. TOAL
PAUL, WEISS, RIFKIND, WHARTON
& GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019-6064

STEVEN M. BAUER
MARGARET A. TOUGH
LATHAM & WATKINS LLP
505 Montgomery Street, Suite 2000
San Francisco, CA 94111-6538

Counsel for Petitioner Exxon Mobil
Corporation

Counsel for Petitioner Phillips 66
MORTIMER HARTWELL
VINSON & ELKINS LLP
555 Mission St., Suite 2000
San Francisco, CA 94105

SEAN C. GRIMSLEY
JAMESON R. JONES
DANIEL R. BRODY
BARTLIT BECK LLP
1801 Wewatta Street,
Suite 1200
Denver, CO 80202

PATRICK W. MIZELL
VINSON & ELKINS LLP
1001 Fannin, Suite 2300
Houston, TX 77002

Counsel for Petitioners ConocoPhillips
and ConocoPhillips Company

Counsel for Petitioner Apache
Corporation
BRYAN A. MERRYMAN
CATHERINE S. SIMONSEN
WHITE & CASE LLP
555 South Flower Street, Suite 2700
Los Angeles, CA 90071-2433

STEVEN M. BAUER
MARGARET A. TOUGH
LATHAM & WATKINS LLP
505 Montgomery Street, Suite 2000
San Francisco, CA 94111

Counsel for Petitioner Eni Oil & Gas
Inc.

Counsel for Petitioners ConocoPhillips,
ConocoPhillips Company, and Phillips
66

GREGORY EVANS
MCGUIREWOODS LLP
Wells Fargo Center
South Tower
355 S. Grand Avenue, Suite 4200
Los Angeles, CA 90071-3103

MARK MCKANE, P.C.
KIRKLAND & ELLIS LLP
555 California Street
San Francisco, CA 94104
ANDREW A. KASSOF, P.C.
BRENTON ROGERS
2

JOY C. FUHR
BRIAN D. SCHMALZBACH
MCGUIREWOODS LLP
800 East Canal Street
Richmond, VA 23219-3916

KIRKLAND & ELLIS LLP
300 North LaSalle
Chicago, IL 60654
Counsel for Petitioners Rio Tinto Energy
America Inc., Rio Tinto Minerals Inc.,
and Rio Tinto Services Inc.

Counsel for Petitioners Devon Energy
Corporation and Devon Energy
Production Company, L.P.

MICHAEL F. HEALY
SHOOK HARDY & BACON LLP
One Montgomery St. Suite 2700
San Francisco, CA 94104

DONALD W. CARLSON
A. DAVID BONA
CARLSON, CALLADINE &
PETERSON LLP
353 Sacramento Street, 16th Fl.
San Francisco, CA 94111

MICHAEL L. FOX
DUANE MORRIS LLP
Spear Tower
One Market Plaza Suite 2200
San Francisco, CA 94105-1127

Counsel for Petitioners Marathon Oil
Corporation and Marathon Oil
Company

Counsel for Petitioner Ovintiv Canada
ULC (fka “Encana Corporation”)

KEVIN ORSINI
VANESSA A. LAVELY
CRAVATH, SWAINE & MOORE LLP
825 Eighth Avenue
New York, NY 10019

CHRISTOPHER W. KEEGAN
KIRKLAND & ELLIS LLP
555 California Street
San Francisco, CA 94104
ANDREW R. MCGAAN, P.C.
KIRKLAND & ELLIS LLP
300 North LaSalle
Chicago, IL 60654

STEPHEN C. LEWIS
R. MORGAN GILHULY
BARG COFFIN LEWIS & TRAPP, LLP
350 California St., 22nd Fl.
San Francisco, CA 94104-1435

ANNA G. ROTMAN, P.C.
KIRKLAND & ELLIS LLP
609 Main Street
Houston, TX 77002

Counsel for Petitioners Occidental
Petroleum Corporation and Occidental
Chemical Corporation

BRYAN D. ROHM
TOTAL E&P USA, INC.
1201 Louisiana Street, Suite 1800
Houston, TX 77002
Counsel for Petitioners Total E&P USA,
Inc. and Total Specialties USA, Inc.
3

JONATHAN A. SHAPIRO
BAKER BOTTS L.L.P.
101 California Street
Suite 3600
San Francisco, CA 94111

CRAIG A. MOYER
PETER DUCHESNEAU
MANATT, PHELPS & PHILLIPS, LLP
11355 West Olympic Boulevard
Los Angeles, CA 90064-1614

SCOTT JANOE
BAKER BOTTS L.L.P.
910 Louisiana Street
Houston, TX 77002

STEPHANIE A. ROESER
MANATT, PHELPS & PHILLIPS, LLP
One Embarcadero Center, 30th Floor
San Francisco, CA 94111

MEGAN BERGE
BAKER BOTTS L.L.P.
701 K Street, NW
Washington, DC 20004

NATHAN P. EIMER
LISA S. MEYER
PAMELA R. HANEBUTT
EIMER STAHL LLP
224 South Michigan Avenue Ste. 1100
Chicago, IL 60604

Counsel for Petitioners Hess
Corporation, Repsol Energy North
America Corporation, and Repsol
Trading USA Corporation

ROBERT E. DUNN
EIMER STAHL LLP
99 S. Almaden Blvd., Suite 662
San Jose, CA 95113

SHANNON S. BROOME
ANN MARIE MORTIMER
HUNTON ANDREWS KURTH LLP
50 California Street, Suite 1700
San Francisco, CA 94111

Counsel for Petitioner CITGO
Petroleum Corporation

SHAWN PATRICK REGAN
HUNTON ANDREWS KURTH LLP
200 Park Avenue
New York, NY 10166-0136
Counsel for Petitioner Marathon
Petroleum Corporation

4

